   March 11, 2005




Infrastructure and Environment

Pentagon Force Protection Agency’s
Data Call Submissions and Internal
Control Processes for Base
Realignment and Closure 2005
(D-2005-039)




            Department of Defense
           Office of Inspector General
Quality             Integrity        Accountability
 Additional Copies

 To request copies of this report, contact Ms. Karen J. Lamar at (703) 604-9005
 (DSN 664-9005) or Mr. Donald A. Bloomer at (703) 604-8863 (DSN 664-8863).

 Suggestions for Future Audits

 To suggest ideas for or to request future audits, contact Audit Followup and
 Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
 Ideas and requests can also be mailed to:

               ODIG-AUD (visit ATTN: AFTS Audit Suggestions)
                   Department of Defense Inspector General
                     400 Army Navy Drive (Room 801)
                         Arlington, VA 22202-4704




Acronyms

BRAC                 Base Realignment and Closure
COBRA                Cost of Base Realignment Actions
ICP                  Internal Control Plan
JCSG                 Joint Cross Service Group
JPAT 7               Joint Process Action Team Criteria Number 7
OSD                  Office of the Secretary of Defense
PFPA                 Pentagon Force Protection Agency
                            INSPECTOR GENERAL
                           DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE




                                                                          March 11,2005


SUBJECT: Report on Pentagon Force Protection Agency's Data Call Submissions and
         Internal Control Processes b r Base Realignment and Closure 2005 (Report
         NO.D-2005-039)

        We are providing this report for information and use. No written response to this
report was required, and none was received. Therefore, we are publishing this report in
final form. We performed this audit in response to an Under Secretary of Defense for
Acquisition, Technology, and Logistics request.
         We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Karen I. Lamar at (703) 604-9005 @SN 664-9005) or to me at (703) 604-8863
@SN 664-8863). See Appendix B for the report distribution. The team members are
listed inside the back cover.
                               By direction of the Deputy Inspector General for Auditing:




                                  for Readiness and Logistics Support
               Department of Defense Office of Inspector General
Report No. D-2005-039                                                    March 11, 2005
  (Project No. D2004-D000LA-0084)

                Pentagon Force Protection Agency’s Data Call
                 Submissions and Internal Control Processes
                   for Base Realignment and Closure 2005

                                Executive Summary

Who Should Read This Report and Why? Office of the Secretary of Defense
personnel responsible for deciding the realignment or closure of military installations
based on the Base Realignment and Closure (BRAC) data calls and Pentagon Force
Protection Agency management personnel should read this report. The report discusses
the adequacy, completeness, and integrity of the data provided by the Pentagon Force
Protection Agency to assist the Secretary of Defense in BRAC 2005 recommendations.

Background. BRAC 2005 is the formal process outlined in Public Law 101-510,
“Defense Base Closure and Realignment Act of 1990,” as amended, under which the
Secretary of Defense may realign or close military installations inside the United States
and its territories. As part of BRAC 2005, the Under Secretary of Defense for
Acquisition, Technology, and Logistics issued “Transformation Through Base
Realignment and Closure (BRAC 2005) Policy Memorandum One-Policy,
Responsibilities, and Procedures,” April 16, 2003, stating that the Department of Defense
Office of Inspector General will review the accuracy of BRAC data and the certification
process.

The BRAC 2005 process was mandated for the United States and its territories and was
divided into the following data calls—capacity analysis, supplemental capacity, military
value, Cost of Base Realignment Actions, and Joint Process Action Team Criteria
Number 7. The supplemental capacity, military value, Cost of Base Realignment
Actions, and Joint Process Action Team Criteria Number 7 data calls are collectively
known as the second data call. This report summarizes issues related to the Pentagon
Force Protection Agency’s BRAC 2005 process.

Pentagon Force Protection Agency. The Pentagon Force Protection Agency provides
force protection, security, and law enforcement services for the people, facilities,
infrastructure, and other resources at the Pentagon and for DoD organizations and
DoD-occupied facilities within the National Capital Region not under the jurisdiction of a
military department. The Pentagon Force Protection Agency provided the Office of the
Secretary of Defense BRAC Office with one data submission in response to the capacity
analysis data call and one in response to the second data call.

Results. We evaluated the validity, integrity, and supporting documentation of
BRAC 2005 data and compliance with the Office of the Secretary of Defense and the
Pentagon Force Protection Agency internal control plans and concluded that the data was
generally supported, complete, and accurate. In addition, the Pentagon Force Protection
Agency complied with applicable internal control plans when preparing, submitting,
documenting, and safeguarding BRAC 2005 data.

Management Comments. We provided a draft of this report on February 18, 2005. No
written response to this report was required, and none was received. Therefore, we are
publishing this report in final form.




                                           ii
Table of Contents

Executive Summary                                                         i

Background                                                                1

Objectives                                                                2

Finding
     Pentagon Force Protection Agency’s BRAC 2005 Data Call Submissions
        and Internal Control Processes                                    3

Appendixes
     A. Scope and Methodology                                             6
         Management Control Review                                        8
         Prior Coverage                                                   8
     B. Report Distribution                                               9
Background
    Base Realignment and Closure 2005. Public Law 101-510, “Defense Base
    Closure and Realignment Act of 1990,” as amended, establishes the procedures
    under which the Secretary of Defense may realign or close military installations.
    The law authorizes the establishment of an independent commission to review the
    Secretary’s recommendations for realigning and closing military installations.
    The Secretary of Defense established and chartered the Infrastructure Executive
    Council and the Infrastructure Steering Group as the Base Realignment and
    Closure (BRAC) 2005 deliberative bodies responsible for leadership, direction,
    and guidance. The Secretary of Defense must submit recommendations to the
    independent commission by May 16, 2005.

    Joint Cross Service Groups. A primary objective of BRAC 2005, in addition to
    realigning base structure, was to examine and implement opportunities for greater
    joint activity. The Office of the Secretary of Defense (OSD) established
    seven Joint Cross Service Groups (JCSGs)—Education and Training,
    Headquarters and Support Activities, Industrial, Intelligence, Medical, Supply and
    Storage, and Technical—to address issues that are common business-oriented
    support functions; examine functions in the context of facilities; and develop
    closure and realignment recommendations based on force structure plans of the
    Armed Forces and on selection criteria. To analyze the issues, each JCSG
    developed data call questions to obtain information about the functions that it
    reviewed.

    BRAC Data Calls. The BRAC 2005 data collection process, mandated for the
    United States and its territories, was divided into the following data calls:
    capacity analysis, supplemental capacity, military value, Cost of Base
    Realignment Actions (COBRA), and Joint Process Action Team Criteria
    Number 7 (JPAT 7). The supplemental capacity, military value, COBRA, and
    JPAT 7 data calls are collectively known as the second data call.

    The Services, Defense agencies, and Defense-wide organizations used either
    automated data collection tools or a manual process to collect data call responses.
    For the capacity analysis data call, the Pentagon Force Protection Agency (PFPA)
    used a manual process to collect BRAC data; for the second data call, PFPA used
    the Data Gathering Tool, a modified Microsoft Access database developed for
    those not using an automated process. Specifically, the data calls were to
    accomplish the following.

           •   The capacity analysis questions gathered data on infrastructure,
               current workload, surge requirements, and maximum capacity.

           •   The supplemental capacity questions clarified inconsistent data
               gathered with the initial capacity questions.

           •   The military value questions gathered data on mission requirements,
               land and facilities, mobilization and contingency, and cost and
               personnel.




                                         1
           •   The COBRA questions gathered data to develop cost savings and
               return on investments of proposed realignment and closure actions.

           •   The JPAT 7 questions gathered data to assess the community’s ability
               to support additional forces, missions, and personnel associated with
               individual scenarios.

    Internal Control Plans. Before BRAC data calls were released to the Military
    Departments and Defense agencies, OSD required the JCSGs, Military
    Departments, and Defense agencies to prepare an internal control plan (ICP) that
    incorporated and supplemented the OSD ICP. The OSD ICP was distributed
    under the Under Secretary of Defense for Acquisition, Technology, and Logistics’
    memorandum, “Transformation Through Base Realignment and Closure
    (BRAC 2005) Policy Memorandum One-Policy, Responsibilities, and
    Procedures” (Policy Memorandum One), April 16, 2003. To comply with that
    requirement, the PFPA prepared “Pentagon Force Protection Agency (PFPA)
    Internal Control Plan (ICP) for 2005 Base Realignment and Closure (BRAC)
    Process,” December 2, 2003.

    Department of Defense Office of Inspector General Responsibility. Policy
    Memorandum One requires the DoD Office of Inspector General to provide ICP
    development and implementation advice, review the relevance and completeness
    of BRAC data, and evaluate the data certification processes. In addition, the
    memorandum requires DoD Office of Inspector General personnel to provide
    assistance as needed to the JCSGs and DoD Components. This resulting report
    summarizes issues related to the PFPA BRAC 2005 process.

    Pentagon Force Protection Agency. PFPA was established in response to the
    September 11, 2001, attacks on the World Trade Center and the Pentagon and
    subsequent terrorist threats facing the DoD workforce and facilities. PFPA
    provides force protection, security, and law enforcement services for the people,
    facilities, infrastructure, and other resources at the Pentagon and for DoD
    organizations and DoD-occupied facilities within the National Capital Region not
    under the jurisdiction of a military department. The BRAC data submitted by
    PFPA officials included information for seven office locations—the PFPA
    headquarters, located in the Pentagon, and the six PFPA sites located throughout
    the National Capital Region. PFPA provided the OSD BRAC Office with
    one data submission for the capacity analysis data call and one for the second data
    call.


Objectives
    The overall objective of the audit was to evaluate the validity, integrity, and
    supporting documentation of data that PFPA collected and submitted for the
    BRAC 2005 process. In addition, we evaluated whether PFPA complied with the
    OSD and PFPA ICPs. We also reviewed the management controls for preparing,
    submitting, documenting, and safeguarding BRAC 2005 data. This report is one
    in a series on data call submissions and internal control processes for
    BRAC 2005. See Appendix A for a discussion of the scope and methodology, our
    review of management controls, and prior coverage related to the objectives.


                                         2
                    Pentagon Force Protection Agency’s
                    BRAC 2005 Data Call Submissions and
                    Internal Control Processes
                    PFPA reported BRAC 2005 data that was generally supported, complete,
                    and accurate. PFPA complied with the OSD and PFPA ICPs and had
                    properly incorporated the OSD ICP management controls into the PFPA
                    ICP for preparing, submitting, documenting, and safeguarding
                    BRAC 2005 data.


Data Call Submissions
            The BRAC 2005 data reported by PFPA was generally supported, complete, and
            accurate. We evaluated the validity, integrity, and supporting documentation of
            the responses PFPA made to all of the questions it received. Specifically, we
            compared question responses with supporting documentation and reviewed “not
            applicable (N/A)” responses to determine whether the responses were reasonable.

            Capacity Analysis Data Call. For the capacity analysis data call, PFPA
            provided responses that were generally supported, complete, and reasonable, once
            corrections were made. PFPA received 753 capacity analysis data call questions
            from the OSD BRAC Office. PFPA BRAC officials reviewed those questions
            and determined that 14 questions applied to PFPA. The responses for 7 of the
            14 capacity analysis data call questions were generally supported and reasonable,
            while 5 were not and 2 contained calculation errors. PFPA officials took action to
            correct the calculation errors; however, additional support for the five responses
            could not be provided. At the conclusion of our review of the capacity analysis
            data call, we considered those responses not properly and reasonably supported;
            however, in September 2004, we revalidated those responses and now consider
            them as generally supported and reasonable based on the best support available.
            We also reviewed the 739 questions that PFPA responded to as N/A and consider
            those responses reasonable.

            Second Data Call. For the second data call, PFPA provided responses that were
            generally supported, complete, and reasonable, once corrections were made.
            PFPA received specific questions from the JCSGs, as well as COBRA and
            JPAT 7 questions, that were to be answered by stand-alone or host activities,
            which included leased facilities. For the second data call, we reviewed the
            supporting documentation for the responses to 18 supplemental capacity,
            11 military value, 8 COBRA, and 20 JPAT 7 questions. We considered most of
            the answers and the N/A responses to be generally supported and reasonable. A
            printout of an online calendar for the Director, PFPA supported the responses for
            the Headquarters and Support Activities JCSG military value question numbers
            19071 and 1908.2 We were unable to validate the steps taken to generate this

1
    The question asked for the number of meetings between an organization’s senior officials, including Flag
     officers, and senior officials from another organization located in the Washington, D.C., area.



                                                       3
            data; therefore, we are not making a determination as to the supportability or
            reasonableness of the answers for those two questions.

            At the conclusion of our visit to PFPA headquarters, responses provided by PFPA
            for the capacity analysis and second data calls were generally supported and
            reasonable, and no further action was required.


Internal Control Processes
            PFPA complied with the OSD and PFPA ICPs and had properly incorporated the
            OSD ICP management controls into the PFPA ICP for preparing, submitting,
            documenting, and safeguarding BRAC 2005 data.

            We evaluated compliance with the PFPA ICP for the capacity analysis and second
            data calls. During the data calls, we evaluated PFPA BRAC 2005 data collection
            processes to determine whether they complied with OSD and PFPA ICPs. The
            evaluation included reviewing whether the PFPA ICP incorporated the OSD ICP
            requirements and whether officials working with BRAC data had completed
            nondisclosure agreements and safeguarded and marked BRAC data. Specifically,
            we reviewed the completeness of the PFPA headquarters’ BRAC book,3 ensured
            that BRAC information was secured in locked containers, and validated that
            PFPA maintained accountability of the BRAC data.

            Compliance With ICPs. PFPA headquarters was compliant with OSD and
            PFPA ICP procedures. In addition, the site data collection processes for the
            capacity analysis and second data calls complied with the PFPA ICP.

            PFPA officials implemented the procedures identified in their ICP. We
            determined that reasonable assurance was provided that PFPA’s BRAC data was
            safeguarded against unauthorized access during the data collection, certification,
            and submission process, to include the completion of nondisclosure agreements.

            Completeness of PFPA ICP. The PFPA ICP had properly incorporated the OSD
            ICP management controls for preparing, submitting, documenting, and
            safeguarding BRAC 2005 data. The PFPA ICP provided management controls
            for the accountability of information during the BRAC process, as well as
            controls to ensure the accuracy, completeness, and integration of all information
            and analytical processes of the submitted information. The PFPA ICP established
            BRAC 2005 responsibilities of PFPA organizations and control mechanisms to
            safeguard PFPA BRAC information. The ICP outlined requirements for verifying
            the accuracy of data and information and included direction on the completion of
            nondisclosure agreements and the collection, marking, safeguarding, and
            maintaining accountability of BRAC data.


2
    The question asked for the number of meetings between an organization’s senior officials, including Flag
     officers, and members of Congress or their staff.
3
    The BRAC book is a printout of the questions, supporting documentation, memorandums for record, and
     certification pages.



                                                       4
Conclusion
    PFPA reported BRAC 2005 data that was generally supported, complete, and
    accurate, after corrections were made, and the data collection processes that
    PFPA used generally complied with the ICPs. We determined that the data
    provided by PFPA for BRAC 2005 was reasonable based on the best support
    available, and no further action was required. The processes used by PFPA to
    collect BRAC data complied with its ICP, which included adequately marking
    and safeguarding BRAC data. We discussed our findings with PFPA personnel
    throughout the process, and they concurred with our findings.




                                       5
Appendix A. Scope and Methodology
   We evaluated the validity, integrity, and supporting documentation of PFPA
   BRAC 2005 data. The evaluation included comparing question responses with
   supporting documentation and reviewing N/A responses to determine whether the
   responses were reasonable. Questions had either an answer or an N/A response;
   an N/A response was for questions determined not to apply to a site.

   We ensured that the PFPA ICP incorporated the requirements of the OSD ICP.
   We evaluated site data collection procedures to determine whether they were in
   compliance with PFPA ICP procedures, to include the completeness of the PFPA
   headquarters’ BRAC book, that BRAC information was secured in locked
   containers, and that PFPA maintained accountability of all BRAC data. In
   addition, we interviewed the personnel responsible for preparing and certifying
   the responses to the data calls.

   The BRAC data submitted by PFPA officials included information for
   seven office locations—the PFPA headquarters, located in the Pentagon, and the
   six PFPA sites located throughout the National Capital Region. We issued site
   memorandums that summarized the results of PFPA headquarters capacity
   analysis and second data call site visits.

   We revalidated PFPA responses to five capacity analysis data call questions in
   September 2004. As of February 2005, we had not conducted any additional
   revalidations of the capacity analysis or second data calls, and PFPA had not
   received any JCSG scenario-specific data calls.

   Capacity Analysis Data Call. PFPA headquarters received 753 capacity
   analysis data call questions and provided responses for all PFPA locations. PFPA
   provided the OSD BRAC Office with one data submission for the capacity
   analysis data call. We evaluated the data call responses by PFPA headquarters.
   Specifically, we reviewed:

          •   answers to capacity analysis data call question numbers 28, 29, 85,
              327, 330, 456, 457, 460, 461, 462, 466, 467, 468, and 471 and
              compared those answers with the supporting documentation;

          •   the 739 N/A responses to determine whether the responses were
              reasonable; and

          •   calculations used for capacity analysis data call answers.

   Second Data Call. PFPA headquarters received targeted questions from the
   JCSGs. PFPA received 18 supplemental capacity questions (17 questions from
   the Headquarters and Support Activities JCSG and 1 question from the Education
   and Training JCSG), 11 military value questions from the Headquarters and




                                        6
            Support Activities JCSG, 8 COBRA1 questions, and 20 JPAT 72 questions. The
            following table shows the targeted question responses we reviewed.


                             Question Responses Reviewed for Second Data Call
                                                                     Question Number
                                                         Answered                            N/A
             Headquarters and Support           4081, 4099, 4100, 4101, 4072, 4073, 4074, 4079,
             Activities JCSG                    4102, and 4103          4080, 4096, 4242, 4243,
             Supplemental Capacity                                      4244, 4245, and 4246
             Education and Training             None                            4000
             JCSG Supplemental
             Capacity
             Headquarters and Support           1905, 1907, 1908, 1909, 1917
             Activities JCSG Military           1910, 1911, 1913, 1914,
             Value*                             1915, and 1916
             COBRA                              1505                            1500, 1501, 1502, 1503,
                                                                                1504, 1506, and 1507
             JPAT 7**                           1400, 1401, 1402, 1403, None
                                                1404, 1405, 1406, 1407,
                                                1408, 1409, 1410, 1411,
                                                1412, 1413, 1414, 1415,
                                                1416, 1417, 1420,
                                                and 1421
             *
              We reviewed the responses provided for question numbers 1907 and 1908; however, we were
                unable to make a determination as to whether the responses were reasonable and accurate
                based on the source documents available.
             **
                The JPAT 7 replaced question numbers 1418 and 1419 with question numbers 1420 and 1421.


            In addition to reviewing the second data call responses, we followed up on
            outstanding issues from our review of the capacity analysis data call responses.
            We re-evaluated the initial responses to capacity analysis question numbers 330,
            460, 466, 467, and 468 and determined that all issues had been resolved.

            We performed this audit from March 2004 through February 2005 in accordance
            with generally accepted government auditing standards.



1
    COBRA questions were to be answered by stand-alone or host activities, which included leased facilities.
2
    JPAT 7 questions were to be answered by stand-alone or host activities, which included leased facilities.



                                                        7
    Use of Computer-Processed Data. We did not test the accuracy of the
    computer-processed data used to support an answer to a data call question
    because of time constraints, and we did not review the data gathering tool used.
    Potential inaccuracies in the data could impact the results; however, the PFPA
    plans officer, trusted agent, and certifying official certified that the BRAC data
    was accurate and complete to the best of their knowledge and belief.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage on Managing Federal Real Property and DoD Support
    Infrastructure Management high-risk areas.


Management Control Review
    We evaluated the PFPA management controls for preparing, submitting,
    documenting, and safeguarding information associated with the BRAC 2005 data
    calls, as directed by the applicable ICPs. Specifically, we reviewed nondisclosure
    agreements to ensure that officials working with BRAC data had agreed to protect
    the information from unauthorized disclosure, the process used to collect and
    report BRAC data, the storage container where BRAC data was stored, and the
    access logs maintained for accessing BRAC information. Management controls
    were adequate as they applied to the audit objective (see Finding for additional
    detail). We did not review the PFPA management control program because its
    provisions were deemed not applicable to the one-time data collection process.


Prior Coverage
    During the last 5 years, the Department of Defense Inspector General (DoD IG)
    has issued two site memorandum reports discussing the PFPA BRAC 2005 data
    call submissions and internal control processes.

    Site Memorandums

    DoD IG Memorandum, “Audit on the Second Data Call Submission From the
    Pentagon Force Protection Agency for Base Realignment and Closure 2005,”
    October 1, 2004

    DoD IG Memorandum, “Audit on the Capacity Analysis Data Call Submission
    From Pentagon Force Protection Agency for Base Realignment and
    Closure 2005,” April 14, 2004




                                         8
Appendix B. Report Distribution

Office of the Secretary of Defense
Director, Base Realignment and Closure (Installations and Environment)

Other Defense Organizations
Director, Pentagon Force Protection Agency
   Deputy Director, Program Integration

Non-Defense Federal Organization
Government Accountability Office*




*
    Only personnel involved in the BRAC process are to receive the report.




                                                       9
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Logistics Support prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Deborah L. Culp
Donald A. Bloomer
Karen J. Lamar
Elizabeth N. Shifflett
